No.

3ht

Supreme Court of tfjc ®mteb
States
Adriano Kruel Budri,
Petitioner,
V.

Administrative Review Board,
United States Department of Labor,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for 5th Circuit
APPENDIX
Adriano K. Budri
Petitioner Pro Se
5029 County Road 605
Burleson, TX 76028-1177
Phone (817) 447-3868
Email address: budri@sbcglobal.net

A1
Case: 18-60579 Document: 00514908591
Page: 1
Date Filed: 04/09/2019
No. 18-60579
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
ADRIANO BUDRI,
Petitioner
v.
ADMINISTRATIVE REVIEW BOARD,
UNITED STATES DEPARTMENT OF LABOR
Petition for Review of the Final Decision and Order of
the United States Department of Labor
Administrative Review Board
LABR No. 18-025
Before KING, SOUTHWICK, and
ENGELHARDT, Circuit Judges.
PER CURIAM:*
Adriano Budri challenges an Administrative Review
Board's decision in favor of his former employer,
Firstfleet, Inc. The decision concluded that Budri
could not establish causation in his whistleblower
retaliation claim under the Surface Transportation
assistance Act ("STAA"), 49 U.S.C. § 31105. We agree
and deny the petition for review.

* Pursuant to 5TH CIR. R. 47.5, the court has
determined that this opinion should not be published
and is not precedent except under the limited
circumstances set forth in 5TH CIR. R. 47.5.4.

A2

The STAA "insure [s] that employees in the
commercial motor transportation industry who make
safety complaints, participate in STAA proceedings,
or refuse to commit unsafe acts do not suffer adverse
employment consequences because of their actions."
Road way Express, Inc. v. Dole, 929 F.2d 1060, 1065
(5th Cir. 1991).
After Budri was terminated by Firstfleet at the end
of his first month of employment, he filed a claim
with the Occupational Safety and Health
Administration. Under the STAA, Budri needed to
demonstrate "by a preponderance of the evidence
that protected activity was a contributing factor in"
termination.
29C.F.R.§ 1978.109(a).
An
his
administrative law judge ("ALJ") found there to be
"no genuine dispute as to any material fact" on the
causation element and granted summary decision to
Firstfleet. 29 C.F.R. § 18.72(a).Budri then petitioned
for review by the Department of Labor's
Administrative Review Board ("ARB"). See: Budri v.
First fleet, Inc., No. 18-025, 2018 WL 6978226 (U.S.
Dep't of Labor Admin. Rev. Bd. June 19, 2018).
The ARB found that, in the one month that Budri
was employed by Firstfleet, "he caused several
accidents, failed to report accidents, failed to deliver
a time-sensitive order, drove on a flat tire to a truck
stop when he had been told to wait for a service crew
to repair the tire, and had a customer ban him from
its facility for refusing to follow instructions." Id. at

A3
*1. It is also referred to the ALJ's findings that
"undisputed evidence demonstrated" Firstfleet"
immediately remedied" a complaint Budri asserted
in protected activity, "took no action against Budri"
after he engaged in other alleged protected activity,
and that all of Budri's mistakes on the job occurred
after purported protected activity. Id. Thps, though
Budri had undertaken protected activity, the ARB
found he had "fail[ed] to present any evidence that
[the activity] contributed to the termination
decision." Id
The ARB affirmed the ALJ's grant of summary
decision in Firstfleet's favor, finding no genuine
disputes of material fact and holding as a matter of
law that Firstfleet was entitled to judgment. Id .at
*2; see also 29 C.F.R. § 18.72(a).
Budri proceeds pro se in this court. We review an
ARB decision to make sure it is not "arbitrary,
capricious, an abuse of discretion, or otherwise
contrary to law, or . . . not supported by substantial
evidence." Mack tal v. United States Dep't of Labor,
171 F.3d 323, 326 (5th Cir. 1999) (citing 5 U.S.C.
06(2)(A)). We review conclusions of law de novo.
Ameristar Airways, Inc. v. Ad min. Review Bd ., 771
F.3d 268, 272 (5th Cir. 2014).
In his petition for review, Budri first argues the ARB
erred by failing to consider certain occurrences to
have been protected activity. The ARB in fact did
consider one of these, pertaining to an inoperative
headlamp on a truck, to be a protected activity, and
it factored the incident into its analysis. See Budri,
2018 WL 6978226, at *1 n.5. As to an event

A4
pertaining to Budri's driving on a flat tire after being
instructed not to do so, the ALJ concluded that Budri
waived that argument because he raised it too late.
Budri briefed the point in his appeal, but the ARB
did not address it. We conclude the ARB's silence
was effectively an adoption of the waiver holding.
Budri does not explain in his petition for review in
this court why the ARB's decision to deem the
argument waived would be arbitrary or capricious.
Even though we construe pro se briefs liberally,
Budri must still adequately contest the Agency's
determinations to have them addressed in this
forum. See Yohey v. Collins, 985 F.2d 222, 224-25
(5th Cir. 1993). He has failed to do that as to this
scenario involving the flat tire.
Budri also contends his motion to compel discovery
should have been granted. Budri filed requests on
November 25 and December 21, 2017. In an order
issued on December. 29, 2017, the ALJ ordered
Firstfleet to respond to Budri's discovery requests or
object to them. Budri argued to the ARB that
Firstfleet only partially complied with the order. The
ARB's decision does not discuss these contentions.
Even if the ARB should have discussed that issue, its
failure to do so is not reversible error if it "clearly
had no bearing on the procedure used or the
substance
of
decision
reached."
Worldcall
Interconnect, Inc. v. F.C.C., 907 F.3d 810, 818 (5th
Cir. 2018) (citation omitted). We see no significance
to the issue regarding discovery, and there is no
reversible error.

A5
This case concerns Budri's commission of a series of
errors during his only month of employment. His
termination took place after those mistakes and not
directly after the protected activity recognized by the
ARB. Budri does not dispute these facts. The record
also indicates that Firstfleet's human resources
manager authorized Budri's termination after an
email request from Budri's supervisor that detailed
Budri's on-the-job mistakes and did not mention any
of the protected activity. We therefore agree there is
no genuine dispute of material fact as to the element
of causation. Firstfleet was due a favorable decision
as a matter of law.
Finally, Budri argues the Agency erred in not
considering his prehearing statements, but he
insufficiently briefs the argument.
The petition for review is DENIED. All pending
motions are DENIED.

A6
Case: 18-60579
Document: 00514933245
Date Filed: 04/29/2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-60579
ADRIANO BUDRI, Petitioner
v.
ADMINISTRATIVE REVIEW BOARD,
UNITED STATES DEPARTMENT OF LABOR
Respondent
Petition for Review of an Order of the Department of
Labor (except OSHA)
ON PETITION FOR REHEARING
Before KING, SOUTHWICK, and ENGELHARDT,
Circuit Judges. PER CURIAM:
IT IS ORDERED that the petition for rehearing is
DENIED.
ENTERED FOR THE COURT:
/s/
LESLIE H. SOUTHWICK
UNITED STATES CIRCUIT JUDGE

A7
United States Department of Labor
Administrative Review Board
200 Constitution Avenue, N.W.
Washington, D.C. 20210
ARB CASE NO. 18-025
ALJ CASE NO. 2017-STA-086
DATE: Jun 19, 2018
In the Matter of:
ADRIANO BUDRI,
COMPLAINANT,
v.
FIRSTFLEET, INC.,
RESPONDENT.
BEFORE: THE ADMINISTRATIVE REVIEW
BOARD
Before: Joanne Royce, Administrative Appeals
Judge, and Leonard J. Howie III,
Administrative Appeals Judge
FINAL DECISION AND ORDER
Adriano Budri filed a complaint with the United
States Department of Labor's Occupational Safety
and Health Administration (OSHA) on March 20,
2017. Budri alleged that his employer, Firstfleet,
Inc., violated the employee protection provisions of

A8
the Surface Transportation Assistance Act (STAA) of
1982, as amended and re-codified, when it
terminated his employment in retaliation for raising
safety concerns.1 The STAA prohibits employers
from discriminating against employees when they
report violations of commercial motor vehicle safety
rules or when they refuse to operate a vehicle when
such operation would violate those rules. A
Department of Labor (DOL) Administrative Law
Judge (ALJ) granted Firstfleet's motion for summary
decision and dismissed Budri's complaint because
Budri failed to present evidence of specific facts that,
if true, would allow a reasonable fact-finder to find
in his favor on the issue of causation. We agree with
the ALJ and summarily affirm the ALJ's order.
In summarily affirming the ALJ's Decision and
Order, we limit our comments to the most critical
points. First, we review a recommended decision
granting summary decision de novo.2 We view the
evidence in the light most favorable to Budri (the
non-moving party) to determine whether there are
any genuine issues of material fact and whether
Firstfleet was entitled to judgment as a matter of
law.3

1 49 U.S.C.A. § 31105 (Thomson Reuters 2016); implementing
regulations at 29 C.F.R. Part 1978 (2017); see 49 U.S.C.A. §
42121 (Thomson Reuters 2016).
2 Hardy v. Mail Contractors of Am., ARB No. 03-07, 2002-STA022, slip op. at 2 (ARB Jan. 30, 2004).
3 Lee v. Schneider Nat'l, Inc., ARB No. 02-102, ALJ No. 2002STA-025, slip op. at 2 (ARB Aug. 28, 2003).

A9
Budri asserts that Firstfleet fired him because he
engaged in protected activity. To prevail on his
claim, Budri is required to prove that 1) he engaged
in protected activity and 2) that Firstfleet took
adverse employment action against him 3) because
of the protected activity.4
We turn to the "causation" element, the focus of this
decision.5
Firstfleet provided documentation
showing that it fired Budri because he caused
several accidents, failed to report accidents, failed to
4 Leaks v. Arctic Glacier, ARB No. 15-079, ALJ No. 2014-STA080, slip op. at 4 (ARB Feb. 7, 2017); 49 U.S.C.A. §
42121 (b)(2) (B) (iii).
5 The ALJ held that Budri engaged in protected activity on
January 30, 2017 when he reported a burned out bulb but that
the evidence regarding Budri's February 8, 2017 discussion
about how to log time while waiting for repairs did not
constitute protected activity. We disagree with the latter
finding. In the course of his discussion with his manager about
how to log time, Budri insisted that the direction he was given
regarding logging time violated state or federal transportation
regulations. Department of Transportation regulations limit
the hours of service for drivers and to ensure compliance that
drivers are required to record their duty status for each 24 hour
period. 49 C.F.R. Part 395.8 (2017).Because hours of service are
strictly regulated and the regulations distinguish between offduty and on-duty (not driving), complaints about how a driver
records driving time, it seems to us, are safety related. Also,
STAA provides that a driver is protected when he "accurately
reports hours on duty pursuant to chapter 315. "49
U.S.C.A.§31105(a)(l )(C). We find that the evidence regarding
Budri's discussion about logging time presents a genuine issue
for trial as to whether it constituted protected activity. That we
find an additional instance of protected activity in this case
does not change the result however, because we affirm the
ALJ's dismissal based on his causation analysis which applies
to both instances of protected activity.

A10
deliver a time-sensitive order, drove on a flat tire to
a truck stop when he had been told to wait for a
service crew to repair the tire, and had a customer
ban him from its facility for refusing to follow
instructions.6 In his response to the motion for
summary decision, Budri did not controvert any of
the facts about these instances other than to assert
that the declarations of Firstfleet's witnesses were
"submitted in bad faith" and contained "misleading,
libel, hearsay and perjury information." The ALJ
also
observed
that
undisputed
evidence
demonstrated that: (1) Firstfleet immediately
remedied the burned out bulb; (2) took no action
against Budri following his discussion of logging
time, and (3) all Budri's alleged protected activity
happened before the incidents cited by Firstfleet as
the basis for Budri's termination. The ALJ properly
determined that Budri's evidence was insufficient to
create a genuine issue of material fact on the issue of
causation. Given Budri's failure to present any
evidence that his protected activities contributed to
the termination decision, Budri cannot prove an
essential element of his claim, the element of
causation.

6 D. & O. at 3-5.

All
CONCLUSION
The ALJ's decision correctly found that there was no
material issue of fact regarding the element of
causation and that Firstfleet is entitled to judgment
as a matter of law. Accordingly, we affirm the ALJ's
order dismissing the complaint and DENY Budri's
complaint.
SO ORDERED.
JOANNE ROYCE
Administrative Appeals Judge
LEONARD J. HOWIE III
Administrative Appeals Judge

A12
ADMINISTRATIVE REVIEW BOARD
Certificate of Service
ARB CASE NAME:
Adriano Budri v. Firstfleet, Incorporated
ARB CASE NO.
2018-025
ALJ CASE NO.
DOCUMENT

2017-STA-0086
ORDER

A copy of the above referenced document was sent to
the following persons on
JUN 1 9 2018

/s/

CHLOETHIEL STERLING

CERTIFIED MAIL
Adriano K. Budri
5029 County Road 605
Burleson, TX 76028

A13
Eric Stevens, Esq. Littler Mendelson, PC
333 Commerce Street, Suite 1450 Nashville ,TN
37201
FirstFleet, Inc.
202 Heritage Park Drive Murfreesboro, TN 37129
REGULAR MAIL:
Directorate of Whistleblower Protection Programs
U.S. Department of Labor/OSHA 200 Constitution
Avenue, NW Room N-4618, FPB Washington, DC
20210
Deputy Associate Solicitor
U.S. Department of Labor Room S-4004
200 Constitution Avenue, NW, Washington, D.C.
20210
Regional Solicitor
U.S. Department of Labor JFK Federal Building
25 New Sudbury Street, Room E-375 Boston, MA
02203
Regional Administrator Region 4
(OSHA / U.S. Department of Labor)
61 Forsyth Street, S.W.
Atlanta, GA 30303
Hon. Larry W. Price, Administrative Law Judge
Office of Administrative Law Judges 5100 Village
Walk, Suite 200
Covington, LA 70433

A14
Hon. Stephen R. Henley
Chief Administrative Law Judge Office of
Administrative Law Judges 800 K Street, NW,
Suite 400,Washington, DC 20001-8002

A15
United States Department of Labor
Office of Administrative Law Judges
5100 Village Walk, Suite 200 Covington, LA 70433
(985) 809-5173
(985) 893-7351 (Fax)
Issue Date: 02 February 2018
CASE NO.: 2017-STA-00086
In the Matter of:
ADRIANO BUDRI,
Complainant
v.
FIRSTFLEET, INC.,
Respondent
DECISION AND ORDER
GRANTINGRESPONDENT'S MOTION FOR
SUMMARY DECISION
This case arises under the employee protection
provisions of the Surface Transportation Assistance
Act, 49 U.S.C. § 31105 (STAA), and its implementing
regulations at 29C.F.R. Part 1978, filed by Adriano
Budri
(Complainant)
against
FirstFleet
(Respondent).
Complainant initiated this action when he filed a
complaint with the Department of Labor's
Occupational Safety and Health Administration
(OSHA) on March 20, 2017, and August 3, 6, 10 and
15, 2017. In his OSHA complaint, Complainant
alleged that Respondent violated the STAA when it

A16
terminated his employment in retaliation for raising
three safety concerns: 1) an expired IFTA decal, 2)
alleged violations of hours of service, and 3)
replacement of a headlight bulb. After completing an
investigation, OSHA dismissed Complainant's
complaint on August 29, 2017. Complainant
requested a hearing before the Office of
Administrative Law Judges (OALJ).
On November 21, 2017, Respondent filed its Motion
for Summary Decision. Respondent argued that the
undisputed facts establish 1) that Complainant did
not engage in protected activity and 2) that any
protected activity was not a contributing factor in
the termination decision. Complainant filed his
Response on November 27, 2017. On December 12,
2017, the Court issued an Order to Show Cause and
Canceling Hearing where in Complainant was
advised of the procedures concerning summary
decision and provided a further opportunity to
respond. i

1 This order was sent because of Complainant's pro se status.
However, the Court recognizes Complainant is not a novice in
regard to the STAA, having filed four previous STAA
complaints
against
other
employers
(2017STA00029;
2014STA00032; 2011STA00015; and 2008STA00053). There
have been numerous motions for sanctions filed by both
Parties. I deny all these motions at this time. Complainant has
also expressed numerous concerns regarding electronic
signatures. The Court assumes these concerns relate to his
receipt / non receipt of the employee handbook. The Court has
not considered whether Complainant has or has not received
the employee handbook in determining whether summary
decision is appropriate.

A17
I. SUMMARY DECISION STANDARD
Summary decision is appropriate “if the pleadings,
affidavits, material obtained by discovery or
otherwise, or matters officially noticed show that
there is no genuine issue as to any material fact and
that a party is entitled to summary decision.” 29
C.F.R. § 18.72; see also Williams u. Dallas Indep.
Sch. Dist., No. 12-024, 2012 WL 6849447 (ARB Dec.
28, 2012). “At the summary decision stage of a STAA
case, the ALJ assesses the evidence for the limited
purpose of deciding whether it shows a genuine issue
as to a material fact... If Complainant fails to
establish an element essential to his case, there can
be “no genuine issue as to a material fact since a
complete failure of proof concerning an essential
element of the non-moving party’s case necessarily
renders all other facts immaterial.” Coates v.
Southeast Milk, Inc., No. 05-050, 2007 WL 4107740,
*3-4 (ARB Jul. 31, 2007).
In evaluating if Respondent is entitled to a summary
decision in this matter, all facts and reasonable
inferences there from are considered in the light
most favorable to the non-moving Complainant.
Battle v. Seibles Bruce Ins. Co., 288 F.3d 596 (4th
Cir. 2002) (citing Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574 (1986)). “However,
even when all evidence is viewed in the light most
favorable to the nonmoving party, the non-moving
party cannot defeat a properly supported summary
judgment motion without presenting ‘significant

A18
probative evidence.’” Pueschel v. Peters, 340 Fed.
Appx 858, 860 (4th Cir. 2009) (unpub.) (citing
Anderson u. Liberty Lobby, Inc., All U.S. 242, 249
(1986)). A party opposing a motion for summary
decision “may not rest upon the mere allegations or
denials of [a] pleading; [the response] must set forth
specific facts showing that there is a genuine issue of
fact for the hearing.” Celotex Corp. u. Catrett, All
U.S. 317, 322 (1986).
When the information submitted for consideration
with a motion for summary decision and the
response to that motion demonstrates that there is
no genuine issue as to any material fact, the request
for summary decision should be granted. Where a
genuine question of a material fact remains, a
motion for summary decision must be denied.
II.

UNDISPUTED FACTS2

1. Respondent and Complainant are subject to the
STAA.
2. Respondent hired Complainant as a commercial
truck driver on January 25, 2017. He was assigned
to be dispatched from the Fort Worth, Texas,
terminal. Daniel Humphreys is the Terminal
Manager. The Fort Worth terminal services a major
customer, Glazer’s Beer and Beverage. (RX 3 4-5).
3. Pursuant to Respondent’s policy, the first 60
days of employment are an introductory period. The
progressive disciplinary policy does not apply to
2 References are to Respondent Exhibits (RX) attached to the
Motion to Summary Decision and Complainant Exhibits (CX)
attached to his Response.

A19
the
during
introductory
period.
employees
Disciplinary issues that might otherwise result in
lesser discipline may result in termination for
introductory employees. (RX 6, p 11; RX 3 if 7).
4.
On January 28, 2017, after leaving for his first
dispatch, Complainant contacted Humphreys by
email to report the IFTA decal on the truck had
expired. Eight minutes later, Humphreys replied
that he would recheck and replace any and all
missing paperwork and thanked Complainant.
Respondent’s
Safety
Director
explained
to
Complainant that there was a two-month grace
period for obtaining new decals and Respondent was
not in violation of the registration requirement.
(RX5-7; RX 3 Ex A).
On January 30, 2017, Complainant stopped at
5.
a Mack Dealership where Humphreys had approved
a purchase order for Complainant to purchase a
latch support. After Complainant left the Mack
Dealership, he stopped at a Pilot truck stop where he
attempted to purchase fuel, oil, windshield wiper
fluid, antifreeze, and a bulb for his headlight using
the Comdata card he had been issued. The Comdata
card was set up to automatically allow fuel
purchases but could not be used to purchase parts
such as the light bulb. Complainant contacted
Humphreys to report the declined purchase and to
request a new bulb. Humphreys instructed
Complainant to purchase the bulb, which cost
approximately ten dollars, and assured him that he
would be reimbursed for the purchase. The bulb was
not replaced at that time. When Complainant
returned from his dispatch, it was discovered that a

A20
replacement bulb was in his cab the entire trip.
Humphreys changed the bulb for Complainant. (RX
3-11- 13). There is no evidence that Respondent took
any action against Complainant at that time.
6. On February 8, 2017, Complainant had a
discussion with Humphreys regarding logging his
time while repairs were being completed on his
vehicle. The issue was whether Complainant should
log in as "On Duty Not Driving" or as "Off Duty" and
whether Texas or U.S. DOT regulations governed.
Complainant insisted the direction he was given
regarding logging time was wrong. There is no
evidence that Respondent took any action against
Complainant at that time. (RX 3 if 14; RX 5 if 8).
7. During his employment with Respondent,
Complainant operated exclusively within the State
of Texas. (RX 5 if 6).
8. On February 10, 2017, Complainant failed to
properly secure the load in his tractor trailer. As a
result, several pallets of beer fell over inside the
trailer and were subsequently rejected by Glazer's.
Glazer's estimated the damage to be valued at
$1,000. Complainant failed to report the damaged
product to Humphreys despite having been
previously coached to report all product and
equipment accidents. Respondent learned of the
damage when Humphreys was notified by Glazer’s
Shipping and Receiving Manager, Nick Gomez. (RX
3-15-16; RX3 Ex C).

A21
9. During the same call, Humphreys learned that
Gomez
began
experiencing
problems
with
Complainant soon after he was hired. Gomez found
Complainant rifling through a box of personal items
on Gomez’s desk. On several occasions, Gomez found
Complainant looking over his shoulder as he read
his personal or business e-mail. Gomez stated he had
to repeatedly tell Complainant to remain in his truck
and to stay off the loading docks while Grazer’s
forklift operators unloaded the trailers. Complainant
refused to follow Gomez’s instructions, exited his
truck, and wandered about the loading docks. (RX 3
if 17).

10. The Glazer’s facility has a designated restroom
for truck drivers to use, located in the front of the
building and away from the unloading equipment to
ensure the safety of drivers and forklift operators.
Gomez told Humphreys that Complainant refused to
use the restroom designated for drivers. Instead, he
used Glazer’s employee restroom which required him
to walk across several loading docks. Gomez said he
spoke several times with Complainant about the
restroom issue, but Complainant ignored Gomez’s
directives and continued to use the employee
restroom. Gomez stated Complainant was on his
“last chance,” had received his “last warning,” and
that if the situation did not change, Complainant
would be banned from their facility. (RX 3 if 17).
11. Approximately an hour later, Gomez called
Humphreys and told him that Complainant failed to
correctly restack several pallets of beer despite being
told on several occasions how to correctly position

A22
the pallets. Gomez complained that Complainant
was also refusing to follow instructions, using the
employee
restroom
again,
and
becoming
argumentative. Gomez said he was banning
Complainant from Glazer’s facility. Humphreys
asked that Complainant be given one more chance.
Gomez declined to do so, and said that if Respondent
sent Complainant back to the facility, he would
reject the load until another driver made the
delivery. (RX 3 if 18).
On February 16, 2017, Complainant had an
12.
accident at the facility of a different customer,
resulting in a door being torn off a trailer.
Complainant failed to report the accident to
Humphreys, despite having been coached to report
accidents. Respondent's handbook states that
'Failure to report a Company related accident' is a
ground for immediate discharge. (RX 6, p 23; RX 3 if
20).
13. On February 17, 2017, Complainant was
dispatched to deliver a time-sensitive order valued at
$50,000 to a distributor in Ennis, Texas.
Complainant arrived to pick up the load at 4:35 a.m.,
more than three hours before the scheduled pick up
time. The customer did not have the loading
completed.
Rather than wait,
Complainant
independently altered his assigned route schedule
and move on to the next order on the list. At that
time, Complainant did not notify Humphreys that he
had changed the route schedule. (RX 3-21).

A23
14. Because Complainant altered his delivery
schedule and delivered out of sequence, he did not
make it back to the first delivery pickup before the
customer had closed for the day. Humphreys had to
locate additional First Fleet personnel to take the
delivery to the distributor on Saturday. The
distributor, which is typically closed on Saturday,
also had to assemble personnel to come in to assist
with offloading and receiving. This resulted in Hum
phreys
receiving
another
serious
customer
complaint. (RX 3 - 22).

15. Also on February 17, 2017, Complainant called
Humphreys to report a flat tire. Humphreys
instructed Complainant to exit the customer's
facilities and to remain on the service road directly
in front of the customer's facility. Humphreys stated
that he would dispatch a repair service crew to meet
Complainant there and repair the tire. However,
Complainant left the service area and drove the
truck (on a flat tire) to a local truck stop
approximately six miles away. Complainant failed to
notify Humphreys that he had left the service, area.
Humphreys did not become aware that Complainant
was not where he was instructed to stay until the
repair service crew notified Humphreys that
Complainant was gone. Respondent was charged
$150.00 for the service dispatch and charged for the
tire repair at the truck stop. (RX 3 - 23).
16.
On February 17, 2017, Humphreys contacted
the Human Resources Manager and requested
authorization
to
terminate
Complainant's
employment. The email details the events at

A24
Glazer's, the accident resulting in a door being torn
off a trailer, Complainant's failure to report the
accident, Complainant's failure to deliver a timesensitive order, and the flat tire incident. No
mention is made of the IFTA decal, the burned out
bulb, or the time logging issue. On February 21,
2017, Complainant's next workday, Humphreys
informed Complainant of his termination. (RX 3 24:
RX 3 Ex D).
III.

WHISTLEBLOWER PROTECTION
UNDER THE STAA

The STAA prohibits an employer from discharging or
discriminating against an employee because the
employee has engaged in certain protected activity.
The employee protection provisions of the STAA at
issue in this case are these:
Prohibitions: (1) A person may not discharge
(a)
an employee or discipline or discriminate against an
employee regarding pay, terms, or privileges of
employment because: (A) (i) the employee, or
another person at the employee's request, has filed a
complaint or begun a proceeding related to a
violation of a commercial motor vehicle safety or
security regulation, standard, or order, or has
testified or will testify in such a proceeding [the
complaints clause]...
(B) The employee refuses to operate a vehicle
because (i) the operation violates a regulation,
standard, or order of the United States related to
commercial motor vehicle safety, health, or security;

A25
or (ii) the employee has a reasonable apprehension
of serious injury to the employee or the public
because of the vehicle's hazardous safety or security
condition, [the refusal to drive clause] 49 U.S.C. §
3110 5 (a) (1) (A) (i), (B).
Congress amended the STAA on August 3, 2007, to
incorporate the legal burdens of proof set forth in the
Wendell H. Ford Aviation, and Investment and
Reform Act for the 21st Century (AIR-21), 49 U.S.C.
42121(b). Pub. L. 110-53, 9/11 Commission Act
§
of 2007, 212 Stat. 266 § 1536; Smith v CRTS
International, Inc., No. 11-086, 2013 WL 2902809, *2
fn.l (ARB Jun. 6, 2013); 49 U.S.C. § 31105(b). In
order to prove a violation under the STAA,
Complainant must show, by a preponderance of
evidence: (1) that he engaged in protected activity;
That Respondent took an adverse employment
(2)
action against him, and; (3) that his protected
activity was a contributing factor in the adverse
action. Williams v. Dominos Pizza, ARB No. 09-092,
No. 2008-STA-00052, slip op. at 5 (ARB Jan. 31,
2011).
At issue here is whether Complainant engaged in
protected activity and whether the protected activity
was a contributing factor to the adverse employment
action. If Complainant establishes that "the
protected activity, alone or in combination with other
factors, affected in some way the outcome of the
employer's decision," then he has met element (3). 77
FR 44127 (Jul. 27, 2012); Benjamin v. Citation
Shares Management, LLC, No .12-029, 2013 WL
6385831 (ARB Nov, 5, 2013). "If the employee does

A26
not prove one of these elements, the entire complaint
fails." Coryell v. Arkansas Energy Services, LLC, No.
12-033, 2013 WL 1934004, *3 (ARB Apr. 25, 2013).
If Complainant successfully proves that his
protected activity was a contributing factor in the
decision to discharge him, then Respondent may
nonetheless avoid liability if it demonstrates by clear
and convincing evidence that the adverse
employment action was the result of events or
decisions independent of protected activity.

49
U.S.C.
§ 42121 (b)(2)(B)(iv); 29 C.F.R. §
1979. 109(a)). Clear and convincing evidence is
"evidence indicating that the thing to be proved is
highly probable or reasonably certain." Coryell v.
Arkansas Energy Services, LLC, No. 12-033, 2013
WL 1934004, *3 (ARB Apr. 25, 2013), quoting
Warren v. Custom Organics, No. 10-092, 2012 WL
759335, *5 (ARB Feb. 29, 2012); Klosterman v. E.J
Davies, Inc., No. 12-035, 2013 WL 143761 (ARB Jan.
9,2013).
At this summary decision juncture, it is
Respondent’s burden to establish that no genuine
issue of material fact exists regarding one or more
essential elements of Complainant's claim. Coates v.
Southeast Milk, Inc., supra.

A27
Protected Activity
As noted previously, a complainant can satisfy the
"protected activity" element of his prima facie case
under either the "complaints clause" (49 U.S.C. § 31
105(a)(l)(A)(i)) or the "refusal to drive clause" (49
U.S.C. § 31105(a)(1)(B)). There has been no
allegation or evidence that Complainant ever refused
to drive.
The three alleged incidents of protected activity will
thus be considered under the "complaints clause."
The IFTA decal
I find Complainant's comments regarding an
outdated IFTA decal did not constitute protected
activity. First, it is not disputed that the IFTA decal
was within the grace period for obtaining a new
decal. Second, even if the decal had expired, the
IFTA decal had nothing to do with safety. Rather,
the International Fuel Tax Agreement (IFTA) is an
agreement between the lower 48 states of the United
States and the Canadian provinces to simplify the
reporting of fuel use by motor carriers that operate
m
than
more
one
jurisdiction.
See
https//en.wikipedia.org/wik/ International Fuel Tax
Agreement.
The Burned Out Bulb
While the undisputed facts establish that
Respondent immediately addressed Complainant's
concern and provided a means by which any safety
issue could be immediately corrected, for purposes of

A28
this motion, I find that the reporting of the burned
out bulb was protected activity.
The Logging of Time Spent in Maintenance
Complainant had a discussion with Humphreys
regarding logging his time while repairs were being
completed on his vehicle. The issue discussed was
whether Complainant should log in as "On Duty Not
Driving" or as "Off Duty" and whether Texas or U. S.
DOT regulations governed.
As noted in Blackann v. Roadway Express, Inc., ARB
Case No. 02-115 (Jun. 30, 2004), federal guidance
provides that "it is the employer's choice whether the
driver shall record stops made during a tour of duty
as off-duty time." 62 Fed. Reg. 16370, 16422 (Apr. 4,
1977). The ARB held that this dispute involved
company policy, not any conduct that is protected by
the Act. On appeal, the Sixth Circuit affirmed the
ARB, stating the ARB correctly noted that the
regulations explicitly leave it to the employer to
determine the manner of recording tour of duty time
and that Roadway 's time log policies did not force
Blackann to violate any federal regulation.
Blackann
v.
Roadway
Express,
Inc.,
159
Fed.Appx.704 (6th Cir. 2005).
I find that Complainant's discussion with
Humphreys regarding logging his time was not
protected activity.

A29
Causation
In a motion for summary decision, the moving party
has the burden of establishing the absence of
evidence to support the nonmoving party's case. The
evidence must be viewed in the light most favorable
to the nonmoving party. Case law recognizes that it
may be difficult to present direct evidence on issues
such as motive, animus, or contribution. It disfavors
use of summary decision to dismiss cases for failing
to establish a genuine issue of material fact based on
those issues. The nonmoving party need not provide
direct evidence to satisfy the causation element;
rather, circumstantial evidence may be sufficient.
To withstand the Motion for Summary Decision,
Complainant must show there is a genuine issue for
trial by presenting evidence of specific facts that, if
true, would allow a reasonable jury to find that
Complainant's reporting the burned out bulb was a
contributing factor in his termination. Anderson u.
Liberty Lobby, Inc., All U.S. 242 (1986).
Although not dispositive, evidence of temporal
proximity may be sufficient circumstantial evidence
to create a genuine issue of material fact that the
protected activity contributed to the adverse action.
Conversely, a causal connection may be severed by
the passage of a significant amount of time or by
some legitimate intervening event. Wiest v. Tyco
Electronics Corp., 812 F.3d 319 (3rd Cir. 2016);
Ameen v. Merck & Co., Inc., 226 Fed.App'x 363, 376
(5th Cir. 2007) (finding that employee's receipt of
favorable treatment after the alleged protected

A30
activity is "utterly inconsistent with an inference of
retaliation").
I find that any inference of causation gleaned from
temporal proximity is nonexistent as the undisputed
facts
overwhelmingly
demonstrate
legitimate
intervening events such that any causal connection
that could be derived from the circumstances was
severed.
Specifically,
the
undisputed
facts
demonstrate that:3
1. The light bulb incident happened in the first week
of Complainant's employment. Respondent offered
an immediate remedy and, when Complainant
declined to purchase the bulb, replaced the bulb at
the first possible opportunity.
2. No action was taken by Respondent against
Complainant following any of the alleged protected
activities, and there is no mention of any of the
activities at any later time.
3. All the alleged protected activity took place prior
to the incidents that were cited by Humphreys in his
request that Complainant be terminated.
4. On February 10, 2017, Complainant's failure to
properly secure a load in his trailer resulted in
damage valued at $1,000. Complainant failed to
report the damaged product to Humphreys despite
having been previously coached to report all product
and equipment accidents.
3 I find the same analysis would apply to the logging of
maintenance time if it were found to constitute protected
activity.

A31
5. Humphreys learned that Glazer's, a major
customer, began experiencing problems with
Complainant soon after he was hired. The problems
ultimately resulted in Complainant's being banned
from Glazer's facility and the notice that Gomez
would reject any load delivered by Complainant.
6. On February 16, 2017, Complainant had an
accident at the facility of a different customer,
resulting in a door being torn off a trailer.
Complainant failed to report the accident to
Humphreys, which is a ground for immediate
discharge.
7. On February 17, 2017, Complainant was
dispatched to deliver a time-sensitive order.
Complainant altered his assigned route schedule
without notifying Respondent. The result was the
need to locate additional personnel to make the
delivery on Saturday when the customer is typically
closed. This resulted in Humphreys receiving a
serious customer complaint.
The same day, Complainant called Humphreys
8.
to report a flat tire. Without telling Humphreys,
aware that Complainant was not where he was
instructed to stay until the repair service crew
notified Humphreys. Respondent was charged
$150.00 for the service dispatch and charged for the
tire repair at the truck stop.

A32
9.
Also the same day, Humphreys recommended
that Complainant be terminated and detailed the
events at Glazer's, the accident resulting in a door
being torn off a trailer, Complainant 's failure to
report the accident, Complainant's failure to deliver
a time-sensitive order, and the flat tire incident.
In his Response, Complainant does not controvert
any of the above facts other than to assert that the
declarations of Humphreys, Henderson, and Cole
have "been submitted in bad faith and contains
misleading, libel, hearsay and perjury information."
Following receipt of the Response, the Court issued
an Order to Show Cause explaining the summary
decision procedure to Complainant. Although no
further Response was filed, Complainant did file a
78-page Prehearing Statement of Position. I have
considered the facts contained therein and find they
do not create a dispute as to the material facts stated
supra.
First, at page 48 Complainant lists nine instances of
alleged protected activity. Most relate to the decal,
logging hours, and the light bulb instances
previously discussed. As to the other instances, I find
these have never been timely placed before OSHA or
the Court.
Second, Complainant disputes whether he ever
received Respondent's employee handbook (p. 9) . I
make no finding regarding Complainant's receipt of
the employee handbook or any issue regarding
electronic signatures.

A33
Next, Complainant disputes some of the facts
surrounding the burned out light bulb (p. 14). But,
the material facts that (1) Complainant made a
complaint about the bulb, (2) the Respondent offered
an immediate remedy, and (3) when Complainant
declined to purchase the bulb, Respondent replaced
the bulb at the first possible opportunity are not
disputed. Further, it is undisputed that Respondent
took no action against Complainant at that time.
Fourth, Complainant disputes the severity of the
damage caused to the trailer door and whether the
accident was reportable. Complainant does not
dispute that he failed to report the accident to
Humphreys, and Complainant does not dispute that
Respondent's handbook states that "Failure to report
a Company related accident" is a ground for
immediate discharge.
Next, Complainant disputes some of the facts
relating to the schedule change on February 17,
2017. Complainant does not dispute that he took it
upon himself to alter his assigned route schedule
and move on to the next order on the list.
Complainant does not dispute that he did not notify
Humphreys that he had changed the route schedule.
Complainant does not dispute that the delivery was
not made before the customer had closed for the day,
that additional First Fleet personnel made the
delivery to the distributor on Saturday, or that the
distributor, which is typically closed on Saturday,
had to assemble personnel to come in to assist with
offloading and receiving. Complainant does not
dispute that this resulted Humphreys' receiving a
serious customer complaint.

A34
Lastly, Complainant disputes some of the facts
related to the flat tire incident on February 17, 2017.
However, Complainant does not dispute that
Humphreys instructed Complainant to remain on
the service road directly in front of the customer's
facility, that Humphreys dispatched a repair service
crew to meet Complainant there and repair the tire,
that Complainant left the service area without
notifying Humphreys, and that Respondent was
charged $150.00 for the service dispatch and charged
for the tire repair at the truck stop.
These uncontroverted facts, both individually and
collectively, negate any possible inference of
causation. Complainant has presented no evidence of
specific facts that, if true, would allow a reasonable
jury to find in his favor on the issue of causation.
supra. Consequently, Complainant
Anderson,
cannot withstand the motion for summary decision
on the issue of causation:
IV. ORDER
Based upon the foregoing and upon the entire record,
Respondent's Motion for Summary Decision is
hereby GRANTED. Case No. 2017-STA-00086 is
DISMISSED WITH PREJUDICE.

A3 5
So ORDERED.
Digitally signed by LARRY PRICE DN: CN=LARRY
PRICE, OU=JUDGE, 0=US DOL Office of
Administrative Law Judges, L=Covington, S=LA,
C=US Location: Covington LA
LARRY W. PRICE
Administrative Law Judge
NOTICE OF APPEAL RIGHTS: To appeal, you
must file a Petition for Review ("Petition") with the
Administrative Review Board ("Board ") within
fourteen (14) days of the date of issuance of the
administrative law judge's decision. The Board's
address is: Administrative Review Board, U.S.
Department of Labor, Suite S-5220, 200 Constitution
Avenue, NW, Washington DC 20210, for traditional
paper filing. Alternatively, the Board offers an
Electronic File and Service Request (EFSR) system.
The EFSR for electronic filing (eFile) permits the
submission of forms and documents to the Board
through the Internet instead of using postal mail
and fax. The EFSR portal allows parties to file new
appeals electronically, receive electronic service of
Board
issuances,
file
briefs
and
motions
electronically, and check the status of existing
appeals via a web-based interface accessible 24
hours every day. No paper copies need be filed.
An e-Filer must register as a user, by filing an online
registration form. To register, the e-Filer must have
a valid e-mail address. The Board must validate the
e-Filer before he or she may file any e-Filed
document. After the Board has accepted an e-Filing,
it is handled just as it would be had it been filed in a

A36
more traditional manner, e- Filers will also have
access to electronic service (eService), which is
simply a way to receive documents, issued by the
Board, through the Internet instead of mailing paper
notices/documents.
Information regarding registration for access to the
EFSR system, as well as a step by step user guide
and FAQs can be found at:
https://dolappeals.entellitrak.com. If you have any questions or
comments,
please
contact:
Boards-EFSRHelp@dol.gov.
Your Petition is considered filed on the date of its
postmark, facsimile transmittal, or e-filing; but if
you file it in person, by hand-delivery or other
means, it is filed when the Board receives it. See 29
C.F.R. § 1978.110(a). Your Petition must specifically
identify the findings, conclusions or orders to which
you object. You may be found to have waived any
objections you do not raise specifically. See 29 C.F.R.
§ 1978.110(a).
At the time you file the Petition with the Board, you
must serve it on all parties as well as the Chief
Administrative Law Judge, U.S. Department of
Labor, Office of Administrative Law Judges, 800 K
Street, NW, Suite 400 -North, Washington, DC
20001-8002. You must also serve the Assistant
Secretary,
Occupational
Safety
and
Health
Administration and, in cases in which the Assistant
Secretary is a party, on the Associate Solicitor for
Occupational Safety and Health. See 29 C.F.R. §
1978.110(a).

A37
If filing paper copies, you must file an original and
four copies of the petition for review with the Board,
together with one copy of this decision. In addition,
within 30 calendar days of filing the petition for
review you must file with the Board an original and
four copies of a supporting legal brief of points and
authorities, not to exceed thirty double-spaced typed
pages, and you may file an appendix (one copy only)
consisting of relevant excerpts of the record of the
proceedings from which the appeal is taken, upon
which you rely in support of your petition for review.
If you e-File your petition and opening brief, only one
copy need be uploaded.
Any response in opposition to a petition for review
must be filed with the Board within 30 calendar days
from the date of filing of the petitioning party's
supporting legal brief of points and authorities. The
response in opposition to the petition for review must
include an original and four copies of the responding
party's legal brief of points and authorities in
opposition to the petition, not to exceed thirty
double-spaced typed pages, and may include an
appendix (one copy only) consisting of relevant
excerpts of the record of the proceedings from which
appeal has been taken, upon which the responding
party relies. If you e-File your responsive brief, only
one copy need be uploaded.
Upon receipt of a legal brief filed in opposition to a
petition for review, the petitioning party may file a
reply brief (original and four copies), not to exceed
ten double-spaced typed pages, within such time
period as may be ordered by the Board. If you e-File
your reply brief, only one copy need be uploaded.

A38
If no Petition is timely filed, the administrative law
judge's decision becomes the final order of the
Secretary of Labor pursuant to 29 C.F.R. §§
1978.109(e) and 1978.11 0(b). Even if a Petition is
timely filed, the administrative law judge's decision
becomes the final order of the Secretary of Labor
unless the Board issues an order within thirty (30)
days of the date the Petition is filed notifying the
parties that it has accepted the case for review. See
29 C.F.R. § 1978.110(b).16
SERVICE SHEET
Case Name:
BUDRI_ADRIANO_v_FIRSTFLEET,INC
Case Number: 2017STA00086
Document Title: Decision and Order Granting
Respondent's Motion for Summary Decision
I hereby certify that a copy of the above-referenced
document was sent to the following this 2nd day of
February, 2018:
Digitally signed by Racheal M. Guerra ON:
CN=Racheal M. Guerra, OU=Legal Assistant,
0=US DOL Office of
Administrative Law Judges, L=Covington,
S:LA, C=US Location: Covington
LA Racheal M, Guerra
Legal Assistant
Regional Solicitor
U. S. Department of Labor
JFK Federal Building, Room E-375
25 New Sudbury Street, BOSTON MA 02203
{Hard Copy - Regular Mail}

A39
Regional Administrator Region 4
U. S. Department of Labor, OSHA
61 Forsyth Street, S.W.
ATLANTA GA 30303
{Hard, Copy - Regular Mail}
Adriano K Budri
5029 County Road 605
BURLESON TX 76028
{Hard Copy - Regular Mail}
Eric Stevens, Esq. Littler Mendelson, PC
333 Commerce Street, Suite 1450
NASHVILLE TN 37201
{Hard Copy - Regular Mail}
Administrative Review Board
U. S. Dept, of Labor, Suite S-5220, FPB A33
200 Constitution Ave., N.W.
WASHINGTON DC 20210
{Hard Copy - Regular Mail}
Director
Directorate of Whistleblower Protection Programs U
S Department of Labor, OSHA
Room N 4618 FPB
200 CONSTITUTION AVE NW,
WASHINGTON DC 20210
{Hard Copy - Regular Mail}
Deputy Associate Solicitor
U. S. Department of Labor, OSHA
Room S-4004, FPB
200 Constitution Ave., N.W.
WASHINGTON DC 20210
{Hard Copy - Regular Mail}

A40
Administrative Review Board
U. S. Dept, of Labor, Suite S-5220, FPB
200 Constitution Ave., N.W.
WASHINGTON DC 20210
{Hard, Copy - Regular Mail}
SERVICE SHEET continued
(2017STA00086 Case Decision) Page: 2
First Fleet, Inc.
202 Heritage Park Drive
MURFREESBORO, TN 37129
{Hard Copy - Regular Mail}

A41
Surface Transportation Assistance Act (STAA)
49 U.S.C. §31105
§31105 Employee protections, (a) Prohibitions. - (1) A
person may not discharge an employee, or discipline
or discriminate against an employee regarding pay,
terms, or privileges of employment, because - (A) (i)
the employee, or another person at the employee's
request, has filed a complaint or begun a proceeding
related to a violation of a commercial motor vehicle
safety or security regulation, standard, or order, or
has testified or will testify in such a proceeding; or
(ii) the person perceives that the employee has filed
or is about to file a complaint or has begun or is
about to begin a proceeding related to a violation of a
commercial motor vehicle safety . or security
regulation, standard, or order; (B) the employee
refuses to operate a vehicle because
(i) the
operation violates a regulation, standard, or order of
the United States related to commercial motor
vehicle safety, health, or security; or (ii) the
employee has a reasonable apprehension of serious
injury to the employee or the public because of the
vehicle's hazardous safety or security condition; (C)
the employee accurately reports hours on duty
pursuant to chapter 315; (D) the employee
cooperates, or the person perceives that the employee
is about to cooperate, with a safety or security
investigation by the Secretary of Transportation, the
Secretary of Homeland Security, or the National
Transportation Safety Board; or (E) the employee
furnishes, or the person perceives that the employee
is or is about to furnish, information to the Secretary
of Transportation, the Secretary of Homeland
Security, the National Transportation

A42
Safety Board, or any Federal, State, or local
regulatory or law enforcement agency as to the facts
relating to any accident or incident resulting in
injury or death to an individual or damage to
property occurring in connection with commercial
motor vehicle transportation.
(2) Under paragraph (l)(B)(ii) of this subsection, an
employee's apprehension of serious injury is
reasonable only if a reasonable individual in the
circumstances then confronting the employee would
conclude that the hazardous safety or security
condition establishes a real danger of accident,
injury, or serious impairment to health. To qualify
for protection, the employee must have sought from
the employer, and been unable to obtain, correction
of the hazardous safety or security condition, (b)
Filing Complaints and Procedures. - (1) An employee
alleging discharge, discipline, or discrimination in
violation of subsection (a) of this section, or another
person at the employee's request, may file a
complaint with the Secretary of Labor not later than
180 days after the alleged violation occurred. All
complaints initiated under this section shall be
governed by the legal burdens of proof set forth in
section 42121(b). On receiving the complaint, the
Secretary of Labor shall notify, in writing, the person
alleged to have committed the violation of the filing
of the complaint.
(2) (A) Not later than 60 days after receiving a
complaint, the Secretary of Labor shall conduct an
investigation, decide whether it is reasonable to
believe the complaint has merit, and notify, in
writing, the complainant and the person alleged to

A43
have committed the violation of the findings. If the
Secretary of Labor decides it is reasonable to believe
a violation occurred, the Secretary of Labor shall
include with the decision findings and a preliminary
order for the relief provided under paragraph (3) of
this subsection. (B) Not later than 30 days after the
notice under subparagraph (A) of this paragraph, the
complainant and the person alleged to have
committed the violation may file objections to the
findings or preliminary order, or both, and request a
hearing on the record. The filing of objections does
not stay a reinstatement ordered in the preliminary
order. If a hearing is not requested within the 30
days, the preliminary order is final and not subject
to judicial review. (C) A hearing shall be conducted
expeditiously. Not later than 120 days after the end
of the hearing, the Secretary of Labor shall issue a
final order. Before the final order is issued, the
proceeding may be ended by a settlement agreement
made by the Secretary of Labor, the complainant,
and the person alleged to have committed the
violation. (3)
(A) If the Secretary of Labor decides, on the basis of
a complaint, a person violated subsection (a) of this
section, the Secretary of Labor shall order the person
to - (i) take affirmative action to abate the violation;
(ii) reinstate the complainant to the former position
with the same pay and terms and privileges of
employment; and (iii) pay compensatory damages,
including back pay with interest and compensation
for any special damages sustained as a result of the
discrimination, including litigation costs, expert
witness fees, and reasonable attorney fees. (B) If the
Secretary of Labor issues an order under

A44
subparagraph (A) of this paragraph and the
complainant requests, the Secretary of Labor may
assess against the person against whom the order is
issued the costs (including attorney fees) reasonably
incurred by the complainant in bringing the
complaint. The Secretary of Labor shall determine
the costs that reasonably were incurred. (C) Relief in
any action under subsection (b) may include punitive
damages in an amount not to exceed $250,000. (c)
DE NOVO REVIEW. - With respect to a complaint
under paragraph (1), if the Secretary of Labor has
not issued a final decision within 210 days after the
filing of the complaint and if the delay is not due to
the bad faith of the employee, the employee may
bring an original action at law or equity for de novo
review in the appropriate district court of the United
States, which shall have jurisdiction over such an
action without regard to the amount in controversy,
and which action shall, at the request of either party
to such action, be tried by the court with a jury, (d)
JUDICIAL REVIEW AND VENUE. - A person
adversely affected by an order issued after a hearing
under subsection (b) of this section may file a
petition for review, not later than 60 days after the
order is issued, in the court of appeals of the United
States for the circuit in which the violation occurred
or the person resided on the date of the violation.
Review shall conform to chapter 7 of title 5. The
review shall be heard and decided expeditiously. An
order of the Secretary of Labor subject to review
under this subsection is not subject to judicial review
in a criminal or other civil proceeding, (e) CIVIL
ACTIONS TO ENFORCE. - If a person fails to
comply with an order issued under subsection (b) of
this section, the Secretary of Labor shall bring a civil

A45
action to enforce the order in the district court of the
United States for the judicial district in which the
violation occurred, (f) NO PREEMPTION. - Nothing
in this section preempts or diminishes any other
safeguards
against
discrimination,
demotion,
discharge,
suspension,
threats,
harassment,
reprimand, retaliation, or any other manner of
discrimination provided by Federal or State law. (g)
RIGHTS RETAINED BY EMPLOYEE. - Nothing in
this section shall be deemed to diminish the rights,
privileges, or remedies of any employee under any
Federal or State law or under any collective
bargaining agreement. The rights and remedies in
this section may not be waived by any agreement,
policy, form, or condition of employment, (h)
DISCLOSURE OF IDENTITY. -(1) Except as
provided in paragraph (2) of this subsection, or with
the written consent of the employee, the Secretary of
Transportation or the Secretary of Homeland
Security may not disclose the name of an employee
who has provided information about an alleged
violation of this part, or a regulation prescribed or
order issued under any of those provisions. (2) The
Secretary of Transportation or the Secretary of
Homeland Security shall disclose to the Attorney
General the name of an employee described in
paragraph (1) of this subsection if the matter is
referred to the Attorney General for enforcement.
The Secretary making such disclosure shall provide
reasonable advance notice to the affected employee if
disclosure of that person's identity or identifying
information is to occur, (i) PROCESS FOR
REPORTING SECURITY PROBLEMS TO THE
DEPARTMENT OF HOMELAND SECURITY. (1)
ESTABLISHMENT OF PROCESS. - The Secretary

A46
of Homeland Security shall establish through
regulations, after an opportunity for notice and
comment, a process by which any person may report
to the Secretary of Homeland Security regarding
motor carrier vehicle security problems, deficiencies,
or vulnerabilities. (2) ACKNOWLEDGMENT OF
RECEIPT. - If a report submitted under paragraph
(1) identifies the person making the report, the
Secretary of Homeland Security shall respond
promptly to such person and acknowledge receipt of
the report. (3) STEPS TO ADDRESS PROBLEM. —
. The Secretary of Homeland Security shall review
and consider the information provided in any report
submitted under paragraph (1) and shall take
appropriate steps to address any problems or
deficiencies identified, (j) DEFINITION. - In this
section, 'employee' means a driver of a commercial
motor vehicle (including an independent contractor
when personally operating a commercial motor
vehicle), a mechanic, a freight handler, or an
individual not an employer, who - (1) directly affects
commercial motor vehicle safety or security in the
course of employment by a commercial motor carrier;
and (2) is not an employee of the United States
Government, a State, or a political subdivision of a
State acting in the course of employment.

A47
FIRSTFLEET’S EMPLOYEE HANDBOOK
PAGE NUMBER 55
Team Driver Off-Duty Time Allowance:
The non-driving member of a team is allowed up to 2
hours of Off-Duty time while the vehicle is moving.
This time must be part of a complete 10 hour break
and must be logged immediately before or after a
consecutive 8-hour Sleeper Berth period.
Day Cab Breaks:
Drivers in trucks that are not equipped with Sleeper
Berths may complete their 10- hour break in the
front seat of a Day Cab truck. The time must be
logged Off -Duty and the vehicle may not move
during the 10-hour break.
On Duty:
All time from the time a driver begins to work or is
required to be in readiness to work, until the time
he/she is relieved from work, and all work
responsibility is considered on- duty time. Work for
any entity/employer, regardless of whether the
employer is a carrier, is considered on-duty time. Onduty time includes the following:
• All time at a plant, terminal, facility, or other
property, of a motor carrier or shipper, or on any
public property, waiting to be dispatched, unless the
driver has been relieved from duty by the motor
carrier;
• All time inspecting, servicing, or conditioning any
commercial motor vehicle at any time;

A48
• All driving time;
• All time, other than driving time, in or upon any
commercial motor vehicle except time spent resting
in a sleeper berth;
• All time loading or unloading a commercial motor
vehicle, supervising, or assisting in the loading or
unloading, attending a commercial motor vehicle
being loaded or unloaded, remaining in readiness to
operate the commercial motor vehicle, or in giving or
receiving receipts for shipments loaded or unloaded;
• All time repairing, obtaining assistance, or
remaining in attendance upon a disabled commercial
motor vehicle.
• All time spent providing a breath sample or urine
specimen, including travel time to and from the
collection site, in order to comply with alcohol and
drug testing requirements;
• Performing any other work in the capacity, employ
or service of a motor carrier;
• Performing any compensated work for a person who
is not a motor carrier 100 Air-Mile;
Radius/Exempt Logs:
100 Air-Mile Radius or Exempt Logs are provided for
drivers who meet the FMCSA requirements in
section 395.1(e). All 100 air-mile radius/local drivers
and switchers must complete either the Over the
Road log or the Exempt log.

A49
A 100 air-mile radius driver may complete a
100 air-mile radius/Exempt log if:

A50
Below an excerpt of the chapter 315:
49 U.S.C. Chapter 315:
MOTOR CARRIER SAFETY
Title 49
TRANSPORTATION SUBTITLE VI
MOTOR VEHICLE AND DRIVER PROGRAMS
PART B COMMERCIAL CHAPTER 315
MOTOR CARRIER SAFETY
Sec. 31501., Definitions. §31502.
Requirements for Qualifications, Hours of Service,
Safety, and Equipment Standards. §31503.
Research, Investigation, and Testing. §31504.
Identification of Motor Vehicles.
§31501. Definitions in this chapter:
(2) "motor carrier", "motor common carrier", "motor
private carrier", "motor vehicle", and "United
States" have the same meanings given those terms
in section 13102 of this title.
§31502. Requirements for qualifications,
hours of service, safety, and equipment standards
(a)
Application.
This
section
applies
to
transportation
(1) Described in sections 13501 and 13502 of this
title; and
To the extent the transportation is in the
(2)
United States and is between places in a foreign
country, or between a place in a foreign country
and a place in another foreign country.

A51

Motor Carrier and Private Motor Carrier
(b)
Requirements. The Secretary of Transportation
prescribes requirements for:
Qualifications and maximum hours of service
(1)
of employees of, and safety of operation and
equipment of, a motor carrier; and
Qualifications and maximum hours of service
(2)
of employees of, and standards of equipment of, a
motor private carrier, when needed to promote
safety, of operation.

